Supreme Court, U.S.
FILED

AUG 2 3 2021
OFFICE OF THE CLERK

No.

-36/
In the

Supreme Court of tlje fHntteb States
Guangcun Huang,
Petitioner,
v.
Tim Hui-Ming Huang et ai.,
Respondents.
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Fifth Circuit
PETITION FOR A WRIT OF CERTIORARI
Guangcun Huang
Pro Se
PO Box 1004
Fremont, CA 94538
(210) 589-5684

QUESTIONS PRESENTED
1. Whether this Court’s decisions interpreting the Eleventh Amendment, see e.g.
Fitzpatrick v. Bitzer; Port Authority Trans-Hudson Corp. v. Feeney, bar Title VII and
other claims against UTHSCSA even when UTHSCSA explicitly and voluntarily
invoked federal jurisdiction before being served
2. Whether Petitioner had provided sufficient factual pleadings of Title VII claim
when he met all Fifth Circuit’s requests to do so
3. Whether this Court’s decisions interpreting the Eleventh Amendment, see e.g.
Edelman v. Jordan; Ex parte Young, bar actions against state officials
4. Whether this Court’s decisions interpreting the First Amendment, see e.g.
American Communications Assn. v. Douds; Citizens United v. Fed. Election Comm’n;
Kingsley Books, Inc. u. Brown,; Jones u. Opelika,; Tory v. Cochran, bar UTHSCSA
from selectively subjecting academic scientist Petitioner to thought-probing in
academic setting
5. Whether this Court’s decisions interpreting the First Amendment, see e.g.
Pickering v. Board of Education, 391 U. S. 563, 574 (1968); Connick u. Myers, 461 U.S.
138, 146 (1983); Garcetti v. Cehallos, 547 US 410, 425, 438 (2006), protect an academic
employee’s speech, outside of performing his official duties, on research misconduct
over an external event in international research community
6. Whether Petitioner has standing to obtain declaratory and injunctive relief
when suffering ongoing violation of federal law and request damages and equity relief

/•/•

Questions Presented
7. Whether Texas Tort Claim Act bar claims against individual employees for
their retaliatory actions outside the scope of their employment
8. Whether this Court’s decisions interpreting the Fourteenth Amendment,
including Grutter v. Bollinger, 539 U.S. 306 (2003), permit the University of Texas
Health Science Center at San Antonio’s denial of promotion of non-religiosity
employee and selective denial of an individual’s thoughts.
9. Whether First Amendment Rights and freedom of movement are Petitioner’s
liberty interest
10. Whether UTHSCSA’s counter-motion to stay discovery should be dismissed
when it failed to make mandatory initial disclosure and being compelled to disclose

Ill

PARTIES TO THE PROCEEDING AND RULE 29.6 STATEMENT
Petitioner in this case is Guangcun Huang.
Respondents are Tim Hui-Ming Huang, Chairman of the Department of
Molecular Medicine, the School of Medicine, the University of Texas Health Science
Center at San Antonio, in his Official Capacity and in his Individual Capacity; ChunLiang Chen, an employee of the Department of Molecular Medicine, in his Official
Capacity and in his Individual Capacity; Chun-Lin Lin, an employee of the
Department of Molecular Medicine, in his Official Capacity and in his Individual
Capacity; Kohzoh Mitsuya, an employee of the Department of Molecular Medicine, in
his Official Capacity and in his Individual Capacity; DeAnna Hester, the
Administrator of the Department of Molecular Medicine, in her Official Capacity and
in her Individual Capacity; the University of Texas Health Science Center at San
Antonio; Jennifer S. Potter, the Vice Dean of the School of Medicine at the University
of Texas Health Science Center at San Antonio, in her Official Capacity and in her
Individual Capacity; William L. Henrich, the President of the University of Texas
Health Science Center at San Antonio, in his Official Capacity and in his Individual
Capacity; other employees of the University of Texas Health Science Center at San
Antonio, in their Official Capacity and in their Individual Capacity.

IV

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED

1

PARTIES TO THE PROCEEDING AND RULE 29.6 STATEMENT

in

TABLE OF CONTENTS

IV

TABLE OF APPENDICES

vi

TABLE OF CITED AUTHORITIES

vn

PETITION FOR A WRIT OF CERTIORARI

1

OPINIONS BELOW

1

JURISDICTION

1

CONSTITUTIONAL PROVISION INVOLVED

2

STATEMENT OF THE CASE

3

A.

Facts

3

B.

Proceedings Below

6

REASONS FOR GRANTING THE PETITION

10

I. The Fifth Circuit’s Analysis On UTHSCSA And Individual
Respondents’ Eleventh Amendment Immunity From Title VII
And Other Claims AfterUTHSCSA Had Consented To Suit In
Federal Court Conflicts With The Decisions Of This Court And
Has So Far Departed From The Accepted And Usual Course Of
Judicial Proceedings As To Call For An Exercise Of This Court’s
Supervisory Power..............................................................................

10

II. The Fifth Circuit’s Analysis On Petitioner’s Title VII Factual
Pleadings Has So Far Also Departed From The Accepted And
Usual Course Of Judicial Proceedings As To Call For An Exercise
Of This Court’s Supervisory Power.....................................................

13

Table of Contents
III. The Fifth Circuit’s Analysis On Petitioner’s Being SelectivelySubject To
Thought-Probing Conflicts With This Court’s Decisions
On Overly Broad Prior Restraint on A Particular Individual’s Speech......15
IV. The Fifth Circuit Has Entered A Decision, Applying Garcetti v.
Ceballos To Academic Setting, In Conflict With The Decisions Of
Other Circuits’ On The Same Important Matter...............................

18

V. The Fifth Circuit’s Analysis Holding Petitioner’s Speech Unprotected
When He, Outside The Course Of Performing His Official Duties, Spoke
On Research Misconduct Over An External Event In The International
Research Community Conflicts with the Decisions of this Court............... 19
VI. The Fifth Circuit’s Analysis Holding The Petitioner Has No Standing
To Obtain Declaratory And Injunctive Relief Has So Far Departed From
The Accepted And Usual Course Of Judicial Proceedings As To Call For
An Exercise Of This Court’s Supervisory Power.............................................. 23
VII.The Fifth Circuit’s Analysis On Texas Tort Claims Act Conflicts With
Texas Supreme Court’s Decision.....................................................................

25

VIII. The Fifth Circuit’s Analysis On Petitioner’s Failure To State A Claim
Conflicts With Decisions of this Court’s Precedents, Conflicts With Other
Circuits’ Decisions On The Same Matter, And Has So Far Departed From
The Accepted And Usual Course Of Judicial Proceedings As To Call For
An Exercise Of This Court’s Supervisory Power............................................... 26
CONCLUSION

29

VI

TABLE OF APPENDICES
Page
APPENDIX A — OPINION OF THE UNITED STATES COURT OF
APPEALS, FIFTH CIRCUIT, DATED FEBRUARY 10, 2021.......

la

APPENDIX B — ORDER OF UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF TEXAS SAN ANTONIO DIVISION,
DATED APRIL 29, 2020......................................................................

15a

APPENDIX C — ORDER OF THE UNITED STATES COURT OF
APPEALS, FIFTH CIRCUIT ON PETITION FOR REHEARING EN BANC,
DATED MARCH 24, 2021.....................................................................................

36a

APPENDIX D — 42 U.S.C. § 2000e, 2000e-2(a), 2000e-5(a)-(g)

37a

APPENDIX E — UT HEALTH SAN ANTONIO REGULATORY AFFAIR &
COMPLIANCE’S INVESTIGATION REPORT ON ALLEGED UNLAWFUL
RETALIATION, DATED APRIL 19, 2018...........................................................

44a

APPENDIX F — UT HEALTH SAN ANTONIO SCHOOL OF MEDICINE
INVESTIGATION REPORT ON ALLEGED RESEARCH MISCONDUCT,
DATED APRIL 19, 2018.....................................................................................

50a

APPENDIX G — UTHSCSA PROFESSOR DR. JIN’S LETTER TO EEOC,
DATED JANUARY 25, 2021.........................................................................

53a

Vll

TABLE OF CITED AUTHORITIES
Page
CASES
Adams v. Trustees of the Univ. of NC-Wilmington,
640 F. 3d 550, 564 (4th Cir. 2011).......................

19

Alexander v. Eeds,

392 F.3d 138, 142 (5th Cir. 2004)
American Communications Assn. v. Douds,
339 US 382, 421, 439, 442, 444, 445, 445-446 (1950)

21
.passim

Aptheker v. Secretary of State,
378 U. S. 500, 505-506 (1964)

28

Atascadero State Hospital, supra,,
473 U.S., at 241, 105 S. Ct., at 3146

12

Blow v. City of San Antonio,
236 F.3d 293, 296 (5th Cir. 2001)

14

Branton v. City of Dallas,
272 F.3d 730, 739 (5th Cir. 2001)

21

Citizens United v. Fed. Election Comm’n,
558 U.S. 310, 340 (2010).......................

17

Connick v. Myers,
461 U.S. 138, 146(1983)
Demers v. Austin,
746 F. 3d 402, 412 (9th Cir. 2014)

19-20, 21

19-20

Edelman v. Jordan,
415 U.S. 651 (1974)

13

Ex parte Young,
209 U.S. 123 (1908)

13, 24

Fitzpatrick v. Bitzer,
427 U.S. 445, 447-48, 448-49, 453 n.9 (1976)

11

via
Cited Authorities

Page
Freedman v. Maryland,
380 US 51, 57 (1965)
Garcetti v. Ceballos,
547 US 410, 418, 419, 423-24, 425, 438 (2006)

17

.passim

Johnson v. Lankford,
245 U.S. 541 (1918)

13

Jones v. Opelika,
316 U.S. 584, 618(1942)

16

Jones v. Opelika,
319 U.S. 103 (1943)

16

Kent v. Dulles,
357 U. S. 116, 126 (1958)

27

Kingsley Books, Inc. v. Brown,
354 US 436 (1957)...............
Kolender v. Lawson,
461 US 352, 358 (1983)
Lane u. Franks,
134 S. Ct. 2374 (2014)

17-18

27

20, 21

Lapides v. Bd. of Regents of Univ. Sys. of Georgia,
535 U.S. 613, 616(2002)........................................

11

Laverie v. Wetherbe,
517 SW 3d 748, 753 (Tex. 2017)

25

Martin v. Lankford,
245 U.S. 547 (1918)

13

McCarthy ex rel. Travis v. Hawkins,
381 F.3d 407, 416-17 (5th Cir. 2004)

24

Morris v. Dearborne,
181 F.3d 657, 668 (5th Cir. 1999)

25

ix

Cited Authorities
Page
Pickering v. Board of Ed. of Township High School Dist. 205, Will Cty.,
391 U. S. 563,574(1968).........................................................................
Port Authority Trans-Hudson Corp. v. Feeney,
495 U.S. 299, 305-306 (1990)..................................................................

20

11-12

Rankin v. McPherson,
483 U. S. 378 (1987)

20

Scheuer v. Rhodes,
416 US 233 (1974)

13

Shuttlesworth v. City of Birmingham,
382 U.S. 87,91 (1965)...................

27

Tory v. Cochran,
544 US 734, 738 (2005)

18

United States v. Schwimmer,
279 U.S. 644, 654-55 (1929)

15

Verizon Maryland, Inc. v. Public Service Commission of Maryland,
535 U.S. 635, 645 (2002)..................................................................

24

Waters v. Churchill,
511 U.S. 661, 674, 114 S.Ct. 1878, 128 L.Ed.2d 686 (1994)

21

Whitney v. California, 274 US 357, 375 (1927),
274 US 357, 375 (1927)..................................

15

CONSTITUTIONAL, STATUTORY, AND REGULATORY PROVISIONS
28U.S.C. § 1983

.passim

28U.S.C. §2000e

2

28 U.S.C. § 2000e-2a

2

28 U.S.C. § 2000e-5(a)-(g)

2

28 U.S.C. § 1254(1)

1

X

Cited Authorities
Page
Fed. R. Civ. P. Rule 12(b)(1)

8, 9, 26

Fed. R. Civ. P. Rule 12(b)(6)

8, 9, 27

Fed. R. Civ. P. Rule 15(a)(1)

7

Fed. R. Civ. P. Rule 26(a)(1)(D)

7, 28

S. Ct. Rule 10(a)

.passim

S. Ct. Rule 10(c)

.passim

Tex. Civ. Prac. & Rem. Code § 101.106(f)

25, 26

Title VII of the Civil Rights Act of 1964

.passim

U.S. Const., amend. I

.passim

U.S. Const., amend. XI

.passim

U.S. Const., amend. XIV

.passim

PUBLIC RECORD
Office ofPublic Affairs, Duke University Agrees to Pay U.S. $112.5 Million to
Settle False Claims Act Allegations Related to Scientific Research Misconduct,
U.S. Department of Justice (March 25, 2019),
https://www.iusiice.gov/opa/pr/duke-universitv-agrees-pay-us-1125-millionsettle-false-claims-act-allcgationsrelated

22

Sheila Kaplan, Duke University to Pay $112.5 Million to Settle Claims of
Research Misconduct, N.Y. Times (March 25, 2019),
https://wwvv.nvtlmes.com/2019/Q3/25/science/duke-settlement.-research.html....... 22

1

PETITION FOR A WRIT OF CERTIORARI
Academic scientist Petitioner Guangcun Huang (“Petitioner”) respectfully
submits his petition for a writ of certiorari to review the judgment of the United
States Court of Appeals for the Fifth Circuit.
OPINIONS BELOW
The opinion of the United States Court of Appeals for the Fifth Circuit (App.
la-14a) is available at 2021 WL 519411, and its order denying rehearing en banc is
reprinted at App. 36a. The federal district court’s order granting Respondents’ motion
to dismiss and dismissing case with prejudice is reprinted at App. 15a-35a.
JURISDICTION
The United States Court of Appeals for the Fifth Circuit rendered its decision
on February 10, 2021. App. la. A timely petition for rehearing en banc was denied on
March 24, 2021. App. 36a. This Court’s March 19, 2020 order extended the deadline
to file petitions for writs of certiorari in all cases to 150 days from the date of the
lower court judgment, order denying discretionary review, or order denying a timely
petition for rehearing. On July 19, 2021 this Court ordered that for cases in which
the relevant lower court judgment, order denying discretionary review, or order
denying a timely petition for rehearing was issued before July 19, 2021, the deadline
remains extended to 150 days from that judgment or order. Petitioner’s Petition for a
Writ of Certiorari is due August 23, 2021 because August 21, 2021 is a Saturday. This
Court has jurisdiction under 28 U.S.C. § 1254(1).

2

CONSTITUTIONAL PROVISION INVOLVED
U.S. Const, amend. I:
Congress shall make no law respecting an establishment of
religion, or prohibiting the free exercise thereof; or abridging the
freedom of speech, or of the press; or the right of the people
peaceably to assemble, and to petition the government for a
redress of grievances.
U.S. Const, amend. XI:
The judicial power of the United States shall not be construed to
extend to any suit in law or equity, commenced or prosecuted
against one of the United States by citizens of another state, or
by citizens or subjects of any foreign state.
U.S. Const, amend. XIV, § 1, 5:
No State shall ... deprive any person of life, liberty, or property,
without due process of law; nor deny to any person within its
jurisdiction the equal protection of the laws.

The Congress shall have power to enforce, by appropriate
legislation, the provisions of this article.
42 U.S.C. § 1983 ■ Civil action for deprivation of rights:
Every person who, under color of any statute, ordinance,
regulation, custom, or usage, of any State or Territory or the
District of Columbia, subjects, or causes to be subjected, any
citizen of the United States or other person within the jurisdiction
thereof to the deprivation of any rights, privileges, or immunities
secured by the Constitution and laws, shall be liable to the party
injured in an action at law, suit in equity, or other proper
proceeding for redress ...
Title VII of the Civil Rights Act of 1964, as amended, as it appears in 42 U.S.C.
beginning at section 2000e. See e.g. 42 U.S.C. § 2000e, 2000e-2(a), 2000e-5(a)-(g). App.
37a-43a.

3

STATEMENT OF THE CASE
A. Facts
Academic scientist Petitioner Guangcun Huang

(“Petitioner”),

at the

University of Texas Health Science Center at San Antonio (“UTHSCSA”), learned
that another UTHSCSA employee Respondent Kohzoh Mitsuya (“Mitsuya”), when
submitting a manuscript to external international research journal Caner Research
for consideration for publication, forged co-author’s consent to submission and made
other false statements in the manuscript. App. 50a. On April 8, 2018, outside the
course of performing his official duties, Petitioner complained to Respondent Tim
Hui-Ming Huang (“Tim Huang”), the Chairman of Department of Molecular Medicine
at UTHSCSA’s School of Medicine, in his official Chairman’s capacity, App. 45a, over
Mitsuya’s research misconduct, and, on April 12, 2018,1 to Roberts A. Hromas
(“Hromas”), the Dean of School of Medicine, App. 46a, in accordance with UTHSCSA’s
policy, App. 47a-48a, but Tim Huang, although conceded that Mitsuya indeed was
making false statement in the manuscript, took actions, inter alia, calling and holding
a meeting, on April 13, 2018, App. 46a, 48a, in the presence of Respondent DeAnna
Hester (“Hester”), the Administrator of Department of Molecular Medicine, and other
employees, and threatening Petitioner of termination, App. 46a-48a, and literally
restraining Petitioner from moving away from his desk, Id., when at work for the next
several months, and, without authority, intentionally and falsely accused Petitioner
1 In June 2018, Petitioner further notified the Editor-in-Chief at Cancer Research about Mitsuya’s
research misconduct and the manuscript was immediately rejected.

4

of being “unhealthy” and spreading it, through emails, to other unrelated UTHSCSA
employees (App. 2a, 16a). Petitioner filed an unlawful retaliation complaint against
Tim Huang, and it was upheld by UTHSCSA’s Office of Regulatory Affairs &
Compliance on April 19, 2018. App. 17a; App. 44a-49a. The investigation report also
noted that Mitsuya’s alleged acts fell into research misconduct (App. 49a); however,
School of Medicine Investigator Respondent Jennifer S. Potter (“Potter”) later ran a
sham investigation and, inter alia, intentionally ignored the above UTHSCSA’s
opinion, Id.; see also App. 50a-52a but compare App. 44a-49a. Petitioner was still
enjoined from moving away from his desk when at work and he was eventually
transferred to Hromas’s Lab on September 4, 2018 (App. 2a, App. 48a, App. 54a).
In April 2019, Petitioner filed suit against UTHSCSA and its employees in
state court, App. 18a, alleging, inter alia, unlawfully retaliating him, as determined
by UTHSCSA, for his speech, more specifically internal report directed at his nominal
superior but outside the course of performing his official duties, on research
misconduct over an external event in the worldwide research community, selectively
enjoining him from his message, expressing his thoughts during academic debate,
before its publication (App. 17a), and violations of Fourteen Amendment and Texas
Constitution, and seeking monetary, declaratory and injunctive relief. In May 2019,
Petitioner filed with the Equal Employment Opportunity Commission (“EEOC”) a
charge of discrimination. App. 18a. In June 2019, then Individual Respondents
removed the case to federal court (Id.) while UTHSCSA, in July 2019 but before being
served, wrote to EEOC explicitly asking for a Right-to-Sue letter so that UTHSCSA

5

could “defend all...alleged complaints in the Charge under one lawsuit [in federal
court/’ (Id.). In February 2020, Petitioner received the Right-to-Sue letter (Id.) and,
as requested by UTHSCSA (Id.), added Title VII claim alleging that, inter alia, during
his tenure at Department of Molecular Medicine, Petitioner, due to his non-religiosity,
was repeatedly but differently treated including: (i) that Petitioner was singled out
and requested to have two first-author research papers to be eligible to be promoted
to Assistant Professor (App. 2a, 16a); and (ii) that he published two first-author
research papers (App. 54a; but compare App. 2a,) but was never being promoted while
UTHSCSA’s similarly situated employees who were religious were promoted even
without any first-author paper (App. 54a). Petitioner also alleged that Tim Huang
frequently made him, being the only non-religiosity one, uncomfortable when
discussing religion during meetings. App. 32a. Petitioner further alleged that, in
January 2018, Tim Huang told Petitioner that Tim Huang himself had instructed
Hester to work on paperwork promoting Petitioner, but Hester denied that later. App.
3a. On April 2, 2018, during a public meeting, when Petitioner complained of not
being promoted with 4 years of excellent annual performance review, Tim Huang
couldn’t explain why Petitioner had never been promoted but instead falsely denied
the existence of annual performance review documents signed by Tim Huang himself.
Tim Huang conceded Petitioner’s complaints constituted to a hostile work
environment. UTHSCSA’s President William L. Henrich (“Henrich”) and other
employees wittingly allowed Tim Huang to continue retaliating Petitioner including
restricting his movement for months while UTHSCSA was investigating Tim Huang

6

over the alleged unlawful retaliation and even after UTHSCSA had determined the
said unlawful retaliation, and further denying Petitioner of a promotion otherwise
deserved (App. 54a-55a). Mitsuya was promoted on September 1, 2018 {Id. at 54a)
and before Petitioner was transferred on September 4, 2018 {Id.).
When the case was pending and Petitioner alleged other research misconduct
related to Tim Huang, UTHSCSA, in October 2019, implemented a new policy making
internal report on research misconduct official duties of employees like Petitioner,
forcing Petitioner either to comply with the policy by making internal report on other
research misconduct as he alleged in his pleadings this case and subject himself to
unlawful retaliation as occurred and determined by UTHSCSA here or not to comply
with the policy by knowingly not making any internal report on research misconduct
but subject himself to disciplinary actions. The new policy again states that
“(m)isconduct also includes retaliation of any kind against a person who reported or
provided information about suspected or alleged misconduct”.
B. Proceedings Below
Petitioner filed suit in the state court against UTHSCSA and its employees in
April 2019, and Individual Respondents removed it to the federal district court in
June 2019. App. 18a. On July 10, 2019, UTHSCSA, before being served, wrote to
EEOC explicitly asking for a Right-to-Sue letter so that it could “defend all...alleged
complaints in the Charge under one lawsuit [in federal courtf\ Id. Petitioner
requested UTHSCSA to waive service on July 25, 2019, and such waiver was filed on
July 30, 2019. A Scheduling Order was issued on August 6, 2019. UTHSCSA failed

7

to make any mandatory initial disclosures but resonated it with an excuse that
“Plaintiff has not provided Defendants with his initial disclosures”, which is explicitly
excluded in Fed. R. Civ. P. Rule 26(a)(1)(D). More than 2 months later, UTHSCSA, in
October 2019, without conferring with Petitioner in good faith, filed Opposed Motion
to Stay Discovery and Opposed Motion for Protective Order, which was granted over
opposition. (App. 19a)
As he later pointed out in his Opening Brief to the Fifth Circuit, Petitioner
attempted three times to timely amend complaint, as a matter of course pursuant to
Fed. R. Civ. P. Rule 15(a)(1), in the district court. The first one was mistakenly
rejected by court clerk but the district court denied, without explanation, Petitioner’s
motion for correction. Fifth Amended-Complaint was timely submitted, in the
traditional manner as required, and the clerk received and stamped it on December
5, 2019 but never filed it. The other Amended-complaint, pursuant to Fed. R. Civ. P.
Rule 15(a)(1), was timely filed on November 4, 2019, but opposing counsel
immediately requested it to be stricken, and was removed from the record. Without
being permitted to amend pursuant to Fed. R. Civ. P. Rule 15(a)(1), Petitioner was
explicitly advised that he would not be permitted to amend complaint although the
district court, on March 16, 2020, stated that “(t)his case is still at the very beginning
stage” without any mandatory initial disclosure made by UTHSCSA.
Petitioner received, in February 2020 (App. 18a), the Right-to-Sue letter and,
as UTHSCSA requested (Id.), added Title VII claim in March 2020, which was
granted on March 16, 2020 but clerk never filed the complaint. In April 2020, the

8

district court ordered granting Respondents’ motion to dismiss for lack of jurisdiction
and for failure to state a claim with prejudice under Fed. R. Civ. P. Rules 12(b)(1) and
12(b)(6), inter alia, granting UTHSCSA Eleventh Amendment immunity from Title
VII and hostile workplace environment claims, ruling Petitioner’s speech, outside the
course of performing his official duties, on research misconduct over an external event
unprotected, permitting Respondents’ selectively subjecting Petitioner to thought­
probing—not allowing scientist Petitioner to think, denying Individual Respondents’
liability including unlawful retaliation against Petitioner, as determined by
UTHSCSA, due to Petitioner’s complaint, outside the course of performing his official
duties, about research misconduct over an external event, and denying Petitioner’s
other relief including declaratory/injunctive relief on, inter alia, UTHSCSA’s new
policy making internal report on research misconduct official duties of employees like
Petitioner, forcing Petitioner either to comply with the policy by making internal
report on other research misconduct as he alleged in his pleadings this case and
subject himself to unlawful retaliation as occurred and determined by UTHSCSA
here or not to comply with the policy by knowingly not making any internal report on
research misconduct but subject himself to disciplinary actions. App. 15a-35a.
Petitioner timely appealed to the Fifth Circuit in May 2020. In his Opening
Brief, Petitioner argued, inter alia, that Individual Respondents are not entitled to
qualified immunity, from claims under 42 U.S.C. § 1983, under Fed. R. Civ. P. Rule
12(b)(1), and the district court erred in dismissing his claims against Individual
Respondents in their individual capacities under Fed. R. Civ. P. Rule 12(b)(1). In his

9

Reply Brief, Petitioner further pointed out that Respondents, in their Answering
Brief, did not address the above issue at all, and that Respondents had also failed to
timely appeal the district court’s failure in dismissing other multiple claims listed in
the charts introduced in their Answering Brief. The Fifth Circuit stated that “the
district court’s findings as to lack of jurisdiction under [Fed. R. Civ. P.] Rule 12(b)(1)
do not cover all of Appellant’s claims” (App. 9a) and that “(i)n particular”:
the district court’s jurisdictional findings do not cover Appellant’s
claims under 42 U.S.C. § 1983 against Appellees Huang, Chen,
Lin, Mitsuya, and Hester, and against Appellees Henrich and
Potter in their individual capacities to the extent that Appellant
seeks damages for these claims. The district court did not make
any findings in response to Appellees’ motion to dismiss argument
that individual Appellees acting in their official capacities are not
“person[s]” within the meaning of 42 U.S.C. § 1983.
Id. at 9a n.2. The Fifth Circuit then “turn(ed) to the district court’s reasons for
granting Appellees’ motion to dismiss for failure to state a claim”, under Fed. R. Civ.
P. Rule 12(b)(6), regarding First Amendment, Fourteenth Amendment Due Process,
Fourteenth Amendment Equal Protection, Title VII and Hostile Work Environment.
In their Answering Brief, Respondents conceded that they “did not argue for
dismissal (of Title VII claim) based on (Eleventh Amendment) immunity”.
In February 2021, the Fifth Circuit affirmed the district court’s order, holding,
inter alia, that the Eleventh Amendment bars UTHSCSA and officials from suit
including Title VII claim although UTHSCSA had explicitly but voluntarily invoked
federal jurisdiction before it was served in state court where this case originated, that
Petitioner surrounded his freedom of thoughts when accepting government
employment, that Petitioner’s speech, outside the course of performing his official

10

duties, on research misconduct over an external event in the worldwide research
community unprotected, and that Petitioner has no standing for requesting
declaratory/injunctive relief on, inter alia, UTHSCSA’s new policy making internal
report on research misconduct official duties of employees like Petitioner, forcing
Petitioner either to comply with the policy by making internal report on other research
misconduct as he alleged in his pleadings this case and subject himself to unlawful
retaliation as occurred and determined by UTHSCSA here or not to comply with the
policy by knowingly not making any internal report on research misconduct but
subject himself to disciplinary actions. App. la-14a. A timely petition for rehearing
en banc was denied on March 24, 2021. App. 36a.
REASONS FOR GRANTING THE PETITION
Certiorari should be granted because the Fifth Circuit not only “[repeatedly]
decided an important federal question in a way that conflicts with relevant decisions
of this Court”, S. Ct. Rule 10(c), it also “has entered a decision in conflict with the
decision of another United States court of appeals on the same important matter”, S.
Ct. Rule 10(a), “has decided an important federal question in a way that conflicts with
a decision by a state court of last resort”, Id., and “has so far departed from the
accepted and usual course of judicial proceedings... as to call for an exercise of this
Court’s supervisory power”, Id.
I. The Fifth Circuit’s Analysis On UTHSCSA And Individual Respondents’
Eleventh Amendment Immunity From Title VII And Other Claims After
UTHSCSA Had Consented To Suit In Federal Court Conflicts With The
Decisions Of This Court And Has So Far Departed From The Accepted
And Usual Course Of Judicial Proceedings As To Call For An Exercise

11

Of This Court’s Supervisory Power.
In their Answering Brief, Respondents conceded that they “did not argue for
dismissal (of Title VII claim) based on (Eleventh Amendment) immunity”. The Fifth
Circuit dismissed all claims against UTHSCSA as barred by the Eleventh
Amendment, App. 6a-7a. The Fifth Circuit “has so far departure from the accepted
and usual course of judicial proceedings as to call for an exercise of this Court’s
supervisory power”. S. Ct. Rule 10(a).
The Fifth Circuit’s decision affirming UTHSCSA’s Eleventh Amendment
Immunity from suit also conflicts with this Court’s precedent. In Fitzpatrick v.
Bitzer, 427 U.S. 445, 447-48 (1976), this Court stated that:
[I]n the 1972 Amendments to Title VII of the Civil Rights Act of
1964, Congress, acting under § 5 of the Fourteenth Amendment,
authorized federal courts to award money damages in favor of a
private individual against a state government found to have
subjected that person to employment discrimination on the basis
of “race, color, religion, sex, or national origin.”
Id. at 447-48. “Title VII, which originally did not include state and local governments,
had in the interim been amended to bring the States within its purview.” Id. at 44849. The Court also stated that there was “no dispute” that, in extending the scope of
Title VII to “States as employers, Congress exercised its power under § 5 of the
Fourteenth Amendment.” Id. at 453 n.9.
Eleventh Amendment is also waived if the state consents to suit. A state may
waive its immunity by initiating or participating in litigation. See e.g. Lapides v. Bd.
of Regents of Uniu. Sys. of Georgia, 535 U.S. 613, 616 (2002). In Port Authority
Trans-Hudson Corp. u. Feeney, 495 U.S. 299, 305—06 (1990), this court stated that:

12

The Court will give effect to a State's waiver of Eleventh
Amendment immunity “ ‘only where stated by the most express
language or by such overwhelming implication from the text as
[will] leave no room for any other reasonable construction.’ ”
Atascadero State Hospital, supra, 473 U.S., at 239240, 105 S.Ct.,
at 3145-3146 (quoting Edelman v. Jordan, 415 U.S. 651, 673, 94
S.Ct. 1347, 1360, 39 L.Ed.2d 662 (1974) (internal quotation
omitted)). A State does not waive its Eleventh Amendment
immunity by consenting to suit only in its own courts, see, e.g.,
Florida Dept, of Health and Rehabilitative Services v. Florida
Nursing Home Assn., 450 U.S. 147, 150, 101 S. Ct. 1032, 1034, 67
L.Ed.2d 132 (1981) (per curiam), and "[t]hus... it must specify the
State's intention to subject itself to suit in federal court."
Atascadero State Hospital, supra, 473 U.S., at 241, 105 S. Ct., at
3146.
Port Authority Trans-Hudson Corp. v. Feeney, 495 U.S. 299, 305-06 (1990). Here,
UTHSCSA has “specified) (its) intention to subject itself to suit in federal courf (Id.
at 306) because on July 10, 2019, UTHSCSA, before being served, wrote EEOC a letter
explicitly asking for a Right-to-Sue letter so that it could “defend all...alleged
complaints in the Charge under one lawsuit [in federal courtf\ App. 18a. There was
one and only one case at the time because then Individual Respondents, without
UTHSCSA, removed this case to federal district court on June 28, 2019. Id. Thus,
UTHSCSA has explicitly and voluntarily invoked federal jurisdiction and waived its
sovereign immunity.
Henrich and Potter in their official capacity are not entitled to sovereign
immunity from actions against them for damages arising out of willful and negligent
disregard of state laws and due to Petitioner’s seeking not only damages imposing
individual and personal liability on the officials but also declaratory or injunctive
relief, inter alia, terminating Potter and other Individual Respondents and

13

UTHSCSA’s new policy making internal report on research misconduct official duties
of employees like Petitioner, forcing Petitioner either to comply with the policy by
making internal report on other research misconduct as he alleged in his pleadings
this case and subject himself to unlawful retaliation as occurred and determined by
UTHSCSA here or not to comply with the policy by knowingly not making any internal
report on research misconduct but subject himself to disciplinary actions. See e.g.
Edelman v. Jordan, 415 U.S. 651 (1974); Ex parte Young, 209 U.S. 123 (1908);
Johnson v. Lankford, 245 U.S. 541 (1918); Martin v. Lankford, 245 U.S. 547 (1918);
Scheuer v. Rhodes, 416 US 233 (1974). However, the Fifth Circuit stated that
“Henrich and Potter, both employees of UTHSCSA and state officials, did not join the
removal of this case to federal court and did not otherwise waive sovereign immunity.
Accordingly, Henrich and Potter are entitled to Eleventh Amendment immunity from
suit in their official capacities.” App. 7a. Thus, the Fifth Circuit’s decision on Eleventh
Amendment again conflicts with this Court’s precedents. S. Ct. Rule 10(c).
II. The Fifth Circuit’s Analysis On Petitioner’s Title VII Factual Pleadings
Has So Far Also Departed From The Accepted And Usual Course Of
Judicial Proceedings As To Call For An Exercise Of This Court’s
Supervisory Power.
Petitioner alleged that he was repeatedly but differently treated including: (i)
that Petitioner was singled out and requested to have two first-author research
papers to be eligible to be promoted to Assistant Professor (App. 2a, 16a); and (ii)
that he published two first-author research papers (App. 54a) but was never.being
promoted (App. 53a-55a) while UTHSCSA’s similarly situated employees who were
religious were promoted even without any first-author paper (App. 54a). Petitioner

14

also alleged that Tim Huang frequently made him, being the only non-religiosity
one, uncomfortable when discussing religion during meetings. App. 32a. Petitioner
further alleged that, in January 2018, Tim Huang told Petitioner that Tim Huang
himself had instructed Hester to work on paperwork promoting Petitioner, but
Hester denied that later. App. 3a. On April 2, 2018, during a public meeting, when
Petitioner complained of not being promoted with 4 years of excellent annual
performance review, Tim Huang couldn’t explain why Petitioner had never been
promoted but instead falsely denied the existence of annual performance review
documents signed by Tim Huang himself. Tim Huang conceded Petitioner’s
complaints constituted to a hostile work environment. Months later, Mitsuya, who
is religious, was promoted on September 1, 2018 and before Petitioner was
transferred on September 4, 2018 (App. 54a). Here, Petitioner argues that he was
not promoted due to his non-religiosity in violation of Title VII of the Civil Rights
Act of 1964, App. 12a, and alleged that (1) due to his being the only non-religiositv
one (App. 32a): although (2) he was qualified (App. 53a-55a) and Tim Huang even
claimed having instructed Hester on Petitioner’s promotion paperwork (App. 3a): (3)
he was not promoted (Ann, 53a-55a): and (4) the position he sought was filled bv
three others, including Mitsuv, App. 54a, outside the protected class. However, The
Fifth Circuit stated that:
In a “failure to promote” claim under Title VII the plaintiff has
the burden to show that “(1) [he] was within a protected class; (2)
[he] was qualified for the position sought; (3) [h]e was not
promoted; and (4) the position [he] sought was filled by someone
outside the protected class.” Blow v. City of San Antonio, 236 F.3d
293, 296 (5th Cir. 2001). Appellant has not made this prima facie

15

showing.
App. 12a; but compare supra at 14. Thus, The Fifth Circuit “has so far also departed
from the accepted and usual course of judicial proceedings as to call for an exercise
of this Court’s supervisory power”. S. Ct. Rule 10(a).
III. The Fifth Circuit’s Analysis On Petitioner’s Being Selectively Subject
To Thought-Probing Conflicts With This Court’s Decisions On Overly
Broad Prior Restraint On A Particular Individual’s Speech.
Concurring in Whitney v. California, 274 US 357, 375 (1927), Justice Brandeis
wrote that:
(The framers of the Constitution) believed that freedom to think
as you will and to speak as you think are means indispensable to
the discovery and spread of political truth... they knew that order
cannot be secured merely through fear of punishment for its
infraction; that it is hazardous to discourage thought, hope and
imagination; that fear breeds repression; that repression breeds
hate; that hate menaces stable government; that the path of safety
lies in the opportunity to discuss freely supposed grievances and
proposed remedies; and that the fitting remedy for evil counsels is
good ones.
Id. at 375 (emphases added). Quoting Justice Holmes’s dissenting opinion in United
States v. Schwimmer, 279 U.S. 644, 654-55 (1929), Justice Jackson, in his concurring
and dissenting, each in part, opinion in American Communications Assn. v. Douds,
339 US 382, 439, 442, 444 (1950), wrote that:
But “if there is any principle of the Constitution that more
imperatively calls for attachment than any other it is the
principle of free thought —not free thought for those who agree
with us but freedom for the thought that we hate...While the
Governments, State and Federal, have expansive powers to
curtail action, and some small powers to curtail speech or writing,
I think neither has any power, on any pretext, directly or
indirectly to attempt foreclosure of any line of thought...This is

16

not only because individual thinking presents no danger to
society, but because thoughtful, bold and independent minds are
essential to wise and considered self-government...The priceless
heritage of our society is the unrestricted constitutional right of
each member to think as he will. Thought control is a copyright
of totalitarianism, and we have no claim to it.. .And I have pointed
out that men cannot enjoy their right to personal freedom if
fanatical masses, whatever their mission, can strangle individual
thoughts and invade personal privacy.
Id. at 439, 442, 444. Similarly, Justice Frankfurter wrote that:
As MR. JUSTICE JACKSON'S opinion indicates, probing into
men's thoughts trenches on those aspects of individual freedom
which we rightly regard as the most cherished aspects of Western
civilization. The cardinal article of faith of our civilization is the
inviolate character of the individual. A man can be regarded as
an individual and not as a function of the state only if he is
protected to the largest possible extent in his thoughts and in his
beliefs as the citadel of his person.
Id. at 421 (emphases added), and Justice Black wrote that:
We have said that"Freedom to think is absolute of its own nature;
the most tyrannical government is powerless to control the
inward workings of the mind."
Id. at 445 (emphasis added); citing dissenting opinion in Jones v. Opelika, 316 U.S.
584, 618 (1942) (it also declared that “(freedom of speech, freedom of the press, and
freedom of religion all have a double aspect — freedom of thought and freedom of
action”. Id.) adopted as this Court’s opinion in Jones v. Opelika, 319 U.S. 103 (1943).
Here, academic scientist Petitioner was singled out and censored from using
the phrase “I think” to express his thought in writing during scientific discussion.
App. 3a. First, Petitioner was attacked for his message “I think” expressing his
thoughts. Moreover, Petitioner was singled out and attacked for his message “I think”

17

expressing his thoughts while others freely used the same message “I think” in the
same context, and Respondent Chun-Liang Chen (“Chen”), who denied Petitioner to
sue the phrase, wrote “I think” in his email to Petitioner in the email string within
48 hours. This is content discrimination and viewpoint discrimination, facially
unconstitutional

and

considered

an

especially

egregious

form

of content

discrimination. In Citizens United v. Fed. Election Comm’n, 558 U.S. 310, 340 (2010),
this Court held that “(s)peech restrictions based on the identity of the speaker are all
too often simply a means to control content” and “the Government may commit a
constitutional wrong when...it identifies certain preferred speakers.” Id. at 340.
Third, what being attacked here is factually the freedom to think which “is absolute
of its own nature...Individual freedom and governmental thought-probing cannot live
together. As the Court admits even today, under the First Amendment ‘Beliefs are
inviolate.’ ” American Communications Assn. v. Douds, 339 US 382, 445-46 (1950).
Moreover, Petitioner’s thoughts during scientific discussion — at academic setting —
was suppressed. The expression of his thoughts was censored before its publication.
This is an overly broad prior restraint on speech. This Court has emphasized that
"[a]ny system of prior restraints of expression comes to this Court bearing a heavy
presumption against its constitutional validity. Bantam Books, Inc. v. Sullivan,
supra, at 70...” (internal quotation masks omitted), Freedman v. Maryland, 380 US
51, 57 (1965), and this Court “(has) tolerated such a system only where it operated
under judicial superintendence

and assured an almost immediate judicial

determination of the validity of the restraint. Kingsley Books, Inc. v. Brown, 354 US

18

436 (1957). In Tory v. Cochran, 544 US 734, 738 (2005), this Court stated that:
[It] amounts to an overly broad prior restraint upon speech,
lacking plausible justification. See Nebraska Press Assn. v.
Stuart, 427 U. S. 539, 559 (1976) ("[P]rior restraints on speech
and publication are the most serious and the least tolerable
infringement on First Amendment rights"); Pittsburgh Press Co.
v. Pittsburgh Comm'n on Human Relations, 413 U. S. 376, 390
(1973) (a prior restraint should not "swee[p]" any "more broadly
than necessary"). As such, the Constitution forbids it. See Carroll
v. President and Comm'rs of Princess Anne, 393 U. S. 175, 183184 (1968) (An "order" issued in "the area of First Amendment
rights" must be "precis[e]" and narrowly "tailored" to achieve the
"pin-pointed objective" of the "needs of the case"); see also Board
of Airport Comm'rs of Los Angeles v. Jews for Jesus, Inc., 482 U.
S. 569, 575, 577 (1987) (regulation prohibiting "all 'First
Amendment activities'" substantially overbroad).
Id. at 738. “(A) man can be regarded as an individual and not as a function of the
state only if he is protected to the largest possible extent in his thoughts and in his
beliefs as the citadel of his person”. American Communications Assn. v. Douds, 339
US 382, 421 (1950) (emphases added).
Thus, the Fifth Circuit’s decision rejecting a particular individual Petitioner’s
using “I think” conflicts with this Court’s precedents. S. Ct. Rule 10(c).
IV. The Fifth Circuit Has Entered A Decision, Applying Garcetti v. Ceballos
To Academic Setting, In Conflict With The Decisions Of Other Circuits’
On The Same Important Matter.
Dissenting in Garcetti v. Ceballos, 547 US 410, 438 (2006), Justice Souter wrote
“I have to hope that today’s majority does not mean to imperil First Amendment
protection of academic freedom in public colleges and universities... ‘pursuant to . . .
official duties.’” Id. at 438. In response, Justice Anthony Kennedy — the author of the
majority opinion in Garcetti, stated that:

19

We need not, and for that reason do not, decide whether the
analysis we conduct today would apply in the same manner to a
case involving speech related to scholarship or teaching.
Id, at 425. In Adams u. Trustees of the Univ. of NC-Wilmington, 640 F. 3d 550, 564
(4th Cir. 2011), the Fourth Circuit stated that:
Applying Garcetti to the academic work...under the facts of this
case could place beyond the reach of First Amendment protection
many forms of public speech or service...That would not appear
to be what Garcetti intended, nor is it consistent with our long­
standing recognition that no individual loses his ability to speak
as a private citizen by virtue of public employment.
Id. at 564. The Ninth Circuit also held that Garcetti does not apply to academic
setting, explaining that:
We conclude that Garcetti does not—indeed, consistent with the
First Amendment, cannot—apply to teaching and academic
writing that are performed “pursuant to the official duties” ...We
hold that academic employee speech not covered by Garcetti is
protected under the First Amendment, using the analysis
established in Pickering.
Demers v. Austin, 746 F. 3d 402, 412 (9th Cir. 2014). The proceeding here involves
the same issue on academic freedom as well, but the Fifth Circuit applied Garcetti to
academic setting, stating that "... (n)or did Appellant speak to a matter of public
concern when he used the phrase ‘I think’ in work-related emails”. Thus, the Fifth
Circuit’s decision conflicts with both Fourth Circuit’s and Ninth Circuit’ decisions on
the same matter of academic setting. S. Ct. Rule 10(a). See also supra at 15-18.
V. The Fifth Circuit’s Analysis Holding Petitioner’s Speech Unprotected
When He, Outside The Course Of Performing His Official Duties, Spoke
On Research Misconduct Over An External Event In The International
Research Community Conflicts With the Decisions of this Court.
As this Court stated in Connick v. Myers, 461 U.S. 138, 146 (1983), matters of

20

public concern are those which can be fairly considered as relating to any matter of
political, social, or other concern to the community. Speech which discloses any
evidence of corruption, impropriety, or other malfeasance on the part of... officials, in
terms of content, clearly concerns matters of public import. Id. at 146. As this Court
explained in Pickering v. Board of Education, 391 U. S. 563, 574 (1968), statements
by public officials on matters of public concern must be accorded First Amendment
protection despite the fact that the statements are directed at their nominal
superiors. Id. at 574. In Garcetti v. Ceballos, 547 US 410, 423-24 (2006), this Court
stated that “(e)mployees who make public statements outside the course of
performing their official duties retain some possibility of First Amendment protection
because that is the kind of activity engaged in by citizens who do not work for the
government. The same goes for...discussing politics with a co-worker”. Id. at 423-24
(2006); citing Rankin v. McPherson, 483 U. S. 378 (1987).
In Lane v. Franks, this Court again declared that “citizens do not surrender
their First Amendment rights by accepting public employment”. Lane v. Franks, 134
S. Ct. 2374 (2014). The Court stated that “the First Amendment protection of a
public employee’s speech depends on a careful balance between the interests of the
[employee], as a citizen, in commenting upon matters of public concern and the
interest of the State, as an employer, in promoting the efficiency of the public
services it performs through its employees.” Id.; citing Pickering v. Board of Ed. of
Township High School Dist. 205, Will Cty., 391 U. S. 563, 568 (1968) (internal
quotations omitted). The Court further stated that “(t)here is considerable value,

21

moreover, in encouraging, rather than inhibiting, speech by public employees. For
[government employees are often in the best position to know what ails the agencies
for which they work.” Lane v. Franks, 134 S. Ct. 2374 (2014); quoting Waters v.
Churchill, 511 U.S. 661, 674, 114 S.Ct. 1878, 128 L.Ed.2d 686 (1994) (plurality
opinion) (internal quotations omitted). The Court then cited “a two-step inquiry into
whether a public employee's speech is entitled to protection” as Garcetti described
whether “the employee spoke as a citizen on a matter of public concern” and “the
relevant government entity had an adequate justification for treating the employee
differently from any other member of the general public.” Lane v. Franks, 134 S. Ct.
2378 (2014); quoting Garcetti v. Ceballos, 547 U. S. 418 (2006). Respondents rightly
conceded that it was not Petitioner’s duty at the time to report research misconduct
because the related policy requiring Petitioner to make a such report was
“implemented in October 2019”. Thus, Petitioner’s statements reporting research
misconduct at the time was speaking as a citizen, and “(t)he First Amendment limits
an employer’s regulation of speech in the workplace ‘[s]o long as employees are
speaking as citizens about matters of public concern.’ ” App. 10a; quoting Garcetti v.
Ceballos, 547 U.S. 410, 419 (2006).

The Fifth Circuit’s own precedents also held that “matters of public concern
are those which can be fairly considered as relating to any matter of political, social,
or other concern to the community.” Alexander v. Beds, 392 F.3d 138, 142 (5th Cir.
2004) (internal quotations omitted); quoting Branton v. City of Dallas, 272 F.3d 730,
739 (5th Cir. 2001); quoting Connick v. Myers, 461 U.S. 138, 146 (1983). Petitioner’s

22

statements on research misconduct, including and focusing in Mitsuya’s forging co­
author’s consent to submit to international research journal for consideration for
publication and making false statements, as conceded by Tim Huang, clearly
concerns matters of public concern and are protected speech. See e.g. Office of Public
Affairs, Duke University Agrees to Pay U.S. $112.5 Million to Settle False Claims Act
Allegations Related to Scientific Research Misconduct, U.S. Department of Justice
(March 25, 2019), https://www.iustice.gov/opa/pr/duke-umver8itv-agree9-pav-iJS1125-m.illion-settle-false-elaims-act-allegations-reJated:

Sheila

Kaplan,

Duke

University to Pay $112.5 Million to Settle Claims of Research Misconduct, N.Y.
Times

(March

25,

2019),

https://www.nvtimes.com/2019/03/25/science/duke-

settlG.ment-research.htm3. In fact, Petitioner’s statements “(t)his manuscript had
been submitted without my permission and there was materially false statement
regarding Authors’ Contributions in this manuscript as well” directed to the Editorin-Chief of Cancer Research resulted in immediate rejection of the manuscript. The
fact that Petitioner conveyed the same statements to external research community
and it resulted in rejection of the manuscript defeated Respondents’ arguments and
the Fifth Circuit’s holding that Petitioner “did not speak to a matter of public
concern when he reported Mitsuya’s alleged misconduct, as this reporting stemmed
from Appellant’s belief that he was entitled to first authorship of the research
paper”. App. 10a. Petitioner lost his authorship entirely when he notified the Editorin-Chief of Cancer Research of the same statements, i.e. his internal report on
Mitsuya’s research misconduct. Petitioner’s statements, unrelated to his official

23

duties, on research misconduct over an external event in the international research
community clearly concern matters of public important and deserve full
constitutional protection. On the other hand, Defendants here did not, and cannot,
have “an adequate justification for treating the employee differently from any other
member of the general public”. Garcetti v. Ceballos, 547 U. S. 418 (2006). App. 44a49a. Thus, the Fifth Circuit’s decision again conflicts with this Court’s precedents.
S. Ct. Rule 10(c).
VI. The Fifth Circuit’s Analysis Holding the Petitioner Has No Standing To
Obtain Declaratory And Injunctive Relief Has So Far Departed From
The Accepted And Usual Course Of Judicial Proceedings As To Call For
An Exercise Of This Court’s Supervisory Power.
Here, Petitioner allege that he was unlawfully retaliated by Tim Huang, as
determined by UTHSCSA, when Petitioner, outside the course of performing his
official duties, made an internal report on research misconduct over an external event
in the international research community. App. 44a-49a; see also supra at 19-22. The
Fifth Circuit’s decision denying Petitioner’s Speech to be protected. Id. When this
case was pending, UTHSCSA implemented a new policy, in October 2019, making
internal report on research misconduct official duties of employees like Petitioner,
forcing Petitioner either to comply with the policy by making internal report on other
research misconduct as he alleged in his pleadings this case and subject himself to
unlawful retaliation as occurred and determined by UTHSCSA here or not to comply
with the policy by knowingly not making any internal report on research misconduct
but subject himself to disciplinary actions. Thus, Petitioner was suffering ongoing
violation of federal law.

24

In their Answering Brief to the Fifth Circuit, Respondents claimed that
Petitioner “cannot rely on Ex parte Young’s limited exception to Eleventh Amendment
immunity for official capacity claims” and that the “district court properly found that
the Ex parte Young did not apply to Huang’s claims, because he did “not sufficiently
allegef] an ‘ongoing violation of federal law,”’ nor is his requested relief
“‘declaratory or injunctive in nature and prospective in effect.’”
In Verizon Maryland, Inc. v. Public Service Commission of Maryland, 535 U.S.
635, 645 (2002), this Court stated that, in determining whether the Ex parte Young
exception applies, a court need only conduct “a straightforward inquiry into whether
[the] complaint alleges an ongoing violation of federal law and seeks relief properly
characterized as prospective.” Id. at 645. The Fifth Circuit’s own precedent also
showed the same. See e.g. McCarthy ex rel. Travis v. Hawkins, 381 F.3d 407, 416-17
(5th Cir. 2004). However, here, the Fifth Circuit analysis holding that Petitioner has
no standing for declaratory or injunctive relief on, inter alia, UTHSCSA’s new policy
and terminating Individual Respondents including Tim Huang, Potter, Hester,
Mistuya and Chen, and dismissed claims against Henrich in his official capacities.
Thus, the Fifth Circuit again has so far departed from the accepted and usual course
of judicial proceedings... as to call for an exercise of this Court’s supervisory power”.
S. Ct. Rule 10(a). Moreover, the Fifth Circuit analysis holding that Petitioner’s
“requested injunctive relief’ is “outside what (the district court) can order” (App. 9a,),
also departed from the accepted and usual course of judicial proceedings, and it’s
undisputable that to retract Tim Huang’s false statements attacking Petitioner’s

25

professional and personal characters is not just to order “the destruction of records”
(Id.; see also App. 29a).
VII. The Fifth Circuit’s Analysis On Texas Tort Claims Act Conflicts With
Texas Supreme Court’s Decision.
Texas Supreme Court hold that “traditional scope-of-employment analysis
in respondeat superior cases, which concerns only whether the employee is
discharging the duties generally assigned to [the employee].” Laverie v. Wetherbe,
517 SW 3d 748, 753 (Tex. 2017) (internal quotation omitted). Tim Huang’s calling
staff meetings to threaten termination, ordering Petitioner to “sit by his desk”
depriving Petitioner’s liberty in the lab, making other defamatory statements
during staff meetings and/or in emails to HR and/or other personal are not within
the scope of his employment, and in fact, he was investigated by UTHSCSA and
found of unlawful retaliation against Petitioner. App. 44a-49a. Tim Huang did not,
and cannot, claim that he himself was qualified/eligible to evaluate Petitioner’s
mental status, nor was Tim Huang discharging his duties assigned to him to
evaluate Petitioner’s mental status while Tim Huang falsely accused Petitioner of
being “quite unhealthy”. Chen clearly stated that Petitioner was “not under (his)
supervision at all”. Chen singled out and censored Petitioner, a scientist, from
using the common phrase “I think” to express his thoughts during research
discussion. Chen’s conduct is “so egregious, so outrageous, that it may fairly be said
to shock the contemporary conscience”. Morris v. Dearborne, 181 F.3d 657, 668 (5th
Cir. 1999). Therefore, UTHSCSA’s move, to dismiss those tort claims against
Individual Respondents pursuant to Tex. Civ. Prac. & Rem. Code § 101.106(f),

26

should be dismissed. Thus, the District Court erred when it applied Tex. Civ. Prac.
& Rem. Code §101.106(f) to Petitioner’s claims against those Individual
Respondents in their Individual Capacity. App. 8a.
Additionally, the Fifth Circuit also stated that Moreover, Respondents, in
their Answering Brief to the Fifth Circuit Court, stating that:
Under Texas Civil Practice & Remedies Code § 101.106(e), if a
suit is filed “against both a governmental unit and any of its
employees, the employees shall immediately be dismissed on the
filing of a motion by the governmental unit.” Tex. Civ. Prac. &
Rem. Code Ann. § 101.106(e).
App. 7a-8a. Respondents argued, in their Answering Brief to the Fifth Circuit, that
Petitioner could not sue UTHSCSA. Moreover, Fourteen Amendment stated that:
No state shall make or enforce any law which shall abridge the
privileges or immunities of citizens of the United States; nor shall
any state deprive any person of life, liberty, or property, without
due process of law; nor deny to any person within its jurisdiction
the equal protection of the laws.
VIII. The Fifth Circuit’s Analysis On Petitioner’s Failure To State A Claim
Conflicts With Decisions Of This Court’s Precedents, Conflicts With
Other Circuits’ Decisions On The Same Matter, And Has So Far
Departed From The Accepted And Usual Course Of Judicial
Proceedings As To Call For An Exercise Of This Court’s Supervisory
Power.
The Fifth Circuit stated that “the district court’s findings as to lack of
jurisdiction under [Fed. R. Civ. P.] Rule 12(b)(1) do not cover all of Appellant’s claims”
(App. 9a) and that “(i)n particular”:
the district court’s jurisdictional findings do not cover Appellant’s
claims under 42 U.S.C. § 1983 against Appellees Huang, Chen,
Lin, Mitsuya, and Hester, and against Appellees Henrich and
Potter in their individual capacities to the extent that Appellant

27

seeks damages for these claims. The district court did not make
any findings in response to Appellees’ motion to dismiss argument
that individual Appellees acting in their official capacities are not
“person[s]” within the meaning of 42 U.S.C. § 1983.
Id. at 9a n.2. The Fifth Circuit then “turn(ed) to the district court’s reasons for
granting Appellees’ motion to dismiss for failure to state a claim”, under Fed. R. Civ.
P. Rule 12(b)(6), regarding First Amendment, Fourteenth Amendment Due Process,
Fourteenth Amendment Equal Protection, Title VII and Hostile Work Environment.
On First Amendment, the Fifth Circuit held that:
Appellant did not speak to a matter of public concern when he
reported Mitsuya’s alleged misconduct, as this reporting stemmed
from Appellant’s belief that he was entitled to first authorship of
the research paper. Nor did Appellant speak to a matter of public
concern when he used the phrase “I think” in work-related emails.
App. 10a. Petitioner has argued that he was speaking, outside the course of
performing his official duties, see supra at 19-22, to a matter of public concern he
made internal report on Mitusya’s misconduct and that he was selectively subject to
thought-probing at academic setting, see supra at 15-18.
On Fourteenth Amendment Due Process, the Fifth Circuit held that:
[I]n § 1983 suits alleging a violation of the Due Process Clause of
the Fourteenth Amendment, . . . [p]laintiffs must (1) assert a
protected ‘liberty or property’ interest and (2) show that they were
deprived of that interest under color of state law... Appellant has
not identified any constitutionally protected liberty or property
interest of which he was deprived.
App. 11a. Petitioner argued, in his Reply Brief to the Fifth Circuit, that First
Amendment Rights and freedom of movement are Petitioner’s liberty interest. See
e.g. Kolender v. Lawson, 461 US 352, 358 (1983); citing Shuttlesworth v. City of
Birmingham,, 382 U. S. 87, 91 (1965); Kent v. Dulles, 357 U. S. 116, 126 (1958);

28

Aptheker v. Secretary of State, 378 U. S. 500, 505-506 (1964).
On Fourteenth Amendment Equal Protection, the Fifth Circuit held that:
To state a claim under the Equal Protection Clause, a § 1983
plaintiff must allege that a state actor intentionally discriminated
against the plaintiff because of membership in a protected class.
App. 11a. Petitioner was selectively subject to thought-probing at academic setting
(see supra at 15-18), and discriminated on his non-religiosity (see supra at 13-14).
On Title VII claim, App. 12a, Petitioner has argued that he had made exactly
factual pleadings requested by the Fifth Circuit Court.

See supra at 14-15. On

Hostile Work Environment claim, App. 12a-13a, Petitioner has argued that he was
speaking, outside the course of performing his official duties, to a matter of public
concern when he made internal report on Mitusya’s misconduct (see supra at 19-22)
and that he was selectively subject to thought-probing at academic setting (see supra
at 15-18).
Additionally, the Fifth Circuit sated that Petitioner “merely makes
conclusory assertions in support of this argument” on interlocutory decisions
although Petitioner not only claims, inter alia, that Respondent never received any
mandatory initial disclosures from Respondent UTHSCSA and that UTHSCSA
responded that with “Plaintiff has not provided Defendants with his initial
disclosures”, which is explicitly excluded in Fed. R. Civ. P. Rule 26(a)(1)(D).
The Fifth Circuit again has not only “[repeatedly] decided an important
federal question in a way that conflicts with relevant decisions of this Court”, S. Ct.
Rule 10(c), it also “has entered a decision in conflict with the decision of another

29

United States court of appeals on the same important matter”, S. Ct. Rule 10(a),
“has decided an important federal question in a way that conflicts with a decision
by a state court of last resort”, Id., and “has so far departed from the accepted and
usual course of judicial proceedings... as to call for an exercise of this Court’s
supervisory power”, Id.
CONCLUSION
The petition for writ of certiorari should be GRANTED.
Respectfully submitted,
Guangcun Huang, Pro Se
PO Box 1004
Fremont, CA 94538
(210) 589-5684
August 23, 2021.

